APPENDIX TABLE OF CONTENTS

Opinion of the Court of Criminal Appeals,
State of Oklahoma (April 1, 2021) ........................... 1a
Order on Remand of the District Court of
Rogers County State of Oklahoma
(November 12, 2020) ............................................... 17a
Court of Criminal Appeals, State of Oklahoma,
Order Remanding for Evidentiary Hearing
(August 19, 2020) .................................................... 45a

App.1a
OPINION OF THE COURT OF CRIMINAL
APPEALS, STATE OF OKLAHOMA
(APRIL 1, 2021)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
MICHAEL EUGENE SPEARS,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Case No. F-2019-330
An Appeal from the District Court of Rogers County
the Honorable Sheila Condren, District Judge
Before: Robert L. HUDSON, Judge,
Dana KUEHN, Presiding Judge, Scott ROWLAND
Vice Presiding Judge, Gary L. LUMPKIN, Judge,
David B. LEWIS, Judge.
OPINION
ROWLAND, VICE PRESIDING JUDGE:
¶ 1 Michael Eugene Spears was tried by jury in
the District Court of Rogers County, Case No. CF2017-1013, and convicted of First Degree Murder, in
violation of 21 O.S.Supp.2012, § 701.7. In accordance

App.2a
with the jury’s recommendation, the Honorable Sheila
Condren sentenced Spears to life imprisonment with
the possibility of parole.
¶ 2 Spears appeals his Judgment and Sentence
raising the following issues:
(1) whether the State of Oklahoma lacked jurisdiction to prosecute him;
(2) whether the evidence was sufficient to prove
all elements of first degree murder;
(3) whether he was prejudiced by the admission
of improper and speculative expert opinion
testimony;
(4) whether the trial court erred in allowing the
prosecution to define reasonable doubt; and
(5) whether he received ineffective assistance
of counsel.
¶ 3 Because we find relief is required on Spears’s
jurisdictional challenge in Proposition 1, his other
claims are moot. Spears claims the State of Oklahoma
did not have jurisdiction to prosecute him relying upon
18 U.S.C. § 1153 and McGirt v. Oklahoma, 140 S.Ct.
2452 (2020).
¶ 4 On August 19, 2020, this Court remanded this
case to the District Court of Rogers County for an
evidentiary hearing. The District Court was directed
to make findings of fact and conclusions of law on
two issues: (a) Spears’s status as an Indian; and (b)
whether the crime occurred in Indian Country, namely
within the boundaries of the Cherokee Nation Reservation. Our order provided that, if the parties agreed
as to what the evidence would show with regard to

App.3a
the questions presented, the parties could enter into
a written stipulation setting forth those facts, and no
hearing would be necessary.
¶ 5 On September 28, 2020, the parties appeared
for an evidentiary hearing and filed written stipulations. On November 12, 2020, the District Court filed
its Findings of Fact and Conclusions of Law. We discuss
the stipulations and District Court’s Findings of Fact
and Conclusions of Law below.
A. The Major Crimes Act
¶ 6 Title 18 Section 1153 of the United States
Code, known as the Major Crimes Act, grants exclusive
federal jurisdiction to prosecute certain enumerated
offenses committed by Indians within Indian country.
It reads in relevant part as follows:
Any Indian who commits against the person
or property of another Indian or other person
any of the following offenses, namely, murder,
manslaughter, kidnapping, maiming, a felony
under chapter 109A, incest, a felony assault
under section 113, an assault against an
individual who has not attained the age of
16 years, felony child abuse or neglect, arson,
burglary, robbery, and a felony under section
661 of this title within the Indian country,
shall be subject to the same law and penalties
as all other persons committing any of the
above offenses, within the exclusive jurisdiction of the United States.
18 U.S.C. § 1153(a) (2013).

App.4a
¶ 7 The first degree murder charge fits squarely
within the Major Crimes Act and its exclusive federal
jurisdiction.
B. McGirt v. Oklahoma
¶ 8 Federal statutes asserting federal criminal
jurisdiction in Indian country are more than one
hundred years old. What has recently changed is the
definition of Indian country, within the borders of
Oklahoma, for purposes of these statutes. In McGirt
v. Oklahoma, 140 S.Ct. 2452 (2020) the Supreme Court
held that land set aside for the Muscogee Creek Nation
in the 1800’s was intended by Congress to be an Indian
reservation, and that this reservation exists today for
purposes of federal criminal law because Congress
never explicitly disestablished it. Although the case now
before us involves the lands of the Cherokee Nation,
we find McGirt’s reasoning controlling.
C. Questions Upon Remand
1. Spears’s Status as Indian
¶ 9 The parties agreed by stipulation that (1)
Spears has some Indian blood (2) he was an enrolled
member of the Cherokee Nation on the date of the
charged offense; and (3) the Cherokee Nation is a
federally recognized tribe. The District Court accepted
this stipulation and reached the same conclusion in
its Findings of Fact and Conclusions of Law.
2. Whether Crime Was Committed in Indian
Country
¶ 10 As to the second question on remand,
whether the crime was committed in Indian country,

App.5a
the stipulation of the parties was less dispositive.
They agreed only that the charged crime occurred
within the historical geographic area of the Cherokee
Nation as designated by various treaties.
a. Establishment of the Cherokee Reservation
¶ 11 In a thorough and well-reasoned order, the
District Court examined the 19th century treaties
between the Cherokee Nation and the United States
of America. The court noted that “[t]he Cherokee
treaties were negotiated and finalized during the same
period of time as the Creek treaties, contained similar
provisions that promised a permanent home that would
be forever set apart, and assured a right to self-government on lands that would lie outside both the legal
jurisdiction and geographic boundaries of any state.”1
The District Court concluded that the current boundaries of the Cherokee Nation are as established in the
1833 Treaty with the Western Cherokee, 1835 Treaty
with the Cherokee, 1846 Treaty with the Cherokee,
and the 1866 Treaty with the Cherokee.
¶ 12 The District Court found, “[l]ike Creek
treaties, the Cherokee treaties that promised land in
Indian Territory to the Cherokee Nation established
the tribe’s relationships with that land and created a
reservation.” This finding is consistent with McGirt,
where the majority found it “obvious” that a similar
1 This Court has also acknowledged that, “[t]he treaties concerning
the Five Tribes which were resettled in Oklahoma in the mid-1800s
(the Muscogee Creek, Cherokee, Chickasaw, Choctaw, and Seminole) have significantly similar provisions; indeed, several of
the same treaties applied to more than one of those tribes.”
Bosse v. State, 2021 OK CR 3, ¶ 5, ___ P.3d ___.

App.6a
course of dealing between Congress and the Creeks
had created a reservation, even though that term had
not always been used to refer to the lands set aside
for them, “perhaps because that word had not yet
acquired such distinctive significance in federal Indian
law.” McGirt, 140 S.Ct. at 2461.
b. Failure to Disestablish the Cherokee
Reservation
¶ 13 “To determine whether a tribe continues to
hold a reservation, there is only one place we may
look: the Acts of Congress.” McGirt, 140 S.Ct. at 2462.
No particular words or verbiage are required, but
there must be a clear expression of congressional
intent to terminate the reservation.
History shows that Congress knows how to
withdraw a reservation when it can muster
the will. Sometimes, legislation has provided
an “[e]xplicit reference to cession” or an
“unconditional commitment . . . to compensate the Indian tribe for its opened land.”
Ibid. Other times, Congress has directed that
tribal lands shall be ‘restored to the public
domain.’” Hagen v. Utah, 510 U.S. 399, 412,
114 S.Ct. 958, 127 L.Ed.2d 252 (1994) (emphasis deleted). Likewise, Congress might
speak of a reservation as being “‘discontinued,’” “‘abolished,’” or “‘vacated.’” Mattz
v. Arnett, 412 U.S. 481, 504, n. 22, 93 S.Ct.
2245, 37 L.Ed.2d 92 (1973). Disestablishment has “never required any particular form
of words,” Hagen, 510 U.S., at 411, 114 S.Ct.
958. But it does require that Congress clearly
express its intent to do so, “[c]ommon[ly

App.7a
with an] ‘[e]xplicit reference to cession or other
language evidencing the present and total
surrender of all tribal interests.’” Nebraska
v. Parker, 577 U.S. 481, ___ __ ___, 136
S.Ct. 1072, 1079, 194 L.Ed.2d 152 (2016).
Id. 140 S.Ct. 2462-63.
¶ 14 The record before the District Court in
this case, similar to that in McGirt, shows Congress,
through treaties, removed the Cherokee people from
one area of the United States to another where they
were promised certain lands. Subsequent treaties
redefined the geographical boundaries of those lands,
but nothing in any of those documents showed a
congressional intent to erase the boundaries of the
reservation and terminate its existence. Congress,
and Congress alone, has the power to abrogate those
treaties, and “this Court [will not] lightly infer such a
breach once Congress has established a reservation.”
McGirt, 140 S.Ct. at 2462 (citing Salem v. Bartlett,
465 U.S. 463, 470 (1984)).
¶ 15 Noting that the State of Oklahoma presented
no evidence to show that Congress erased or disestablished the boundaries of the Cherokee Nation
Reservation, the District Court found that the Cherokee
Reservation remains in existence. This finding is
supported by the record.
¶ 16 We hold that for purposes of federal criminal
law, the land upon which the parties agree Spears
allegedly committed the crime is within the Cherokee
Reservation and is thus Indian country. The ruling
in McGirt governs this case and requires us to find the
District Court of Rogers County did not have jurisdic-

App.8a
tion to prosecute Spears. Accordingly, we grant relief
based upon argument raised in Proposition 1.
DECISION
¶ 17 The Judgment and Sentence of the District
Court is VACATED. The matter is REMANDED
WITH INSTRUCTIONS TO DISMISS. Pursuant to
Rule 3.15, Rules of the Oklahoma Court of Criminal
Appeals, Title 22, Ch. 18, App. (2021), the MANDATE
is ORDERED to issue in twenty (20) days from the
delivery and filing of this decision.
AN APPEAL FROM THE DISTRICT COURT
OF ROGERS COUNTY THE HONORABLE
SHEILA CONDREN, DISTRICT JUDGE
APPEARANCES AT TRIAL
Jack E. Gordon, Jr.
Attorney at Law
111 S. Muskogee Ave.
Claremore, OK 74017
Counsel for Defendant
Lawrence A. Martin
Attorney at Law
123 S. Broadway
Cleveland, OK 74020
Counsel for Defendant
Isaac Shields
Asst. District Attorney
Rogers County Courthouse
200 S. Lynn Riggs Blvd.
Claremore, OK 74017
Counsel for State

App.9a
APPEARANCES ON APPEAL
James H. Lockard
Deputy Division Chief
Homicide Direct Appeals Division
Oklahoma Indigent Defense System
P.O. Box 926
Norman, OK 73070
Counsel for Appellant
Mike Hunter
Attorney General of Oklahoma
Keeley L. Miller
Assistant Attorney General
313 N.E. 21st Street
Oklahoma City, OK 73105
Counsel for Appellee
APPEARANCES ON REMAND
Matt Ballard
District Attorney
Rogers County Courthouse
200 S. Lynn Riggs Blvd.
Claremore, OK 74017
Counsel for State
James H. Lockard
Deputy Division Chief
Homicide Direct Appeals Division
Oklahoma Indigent Defense System
P.O. Box 926
Norman, OK 73070
Counsel for Appellant

App.10a
Mike Hunter
Attorney General of Oklahoma
Randall Young
Julie Pittman
Assistant Attorney Generals
313 N.E. 21st Street
Oklahoma City, OK 73105
Counsel for State
Sara Hill
Chrissi Nimmo
Cherokee Nation Office of the Attorney General
P.O. Box 1533
Tahlequah, OK 74465
OPINION BY: ROWLAND, V.P.J.
KUEHN, P.J.: Concur
LUMPKIN, J.: Concur in Results
LEWIS, J.: Specially Concur
HUDSON, J.: Concur in Results

App.11a
LUMPKIN, JUDGE:
CONCURRING IN RESULTS:
¶ 1 Bound by my oath and the Federal-State relationships dictated by the U.S. Constitution, I must at a
minimum concur in the results of this opinion. While
our nation’s judicial structure requires me to apply
the majority opinion in the 5-4 decision of the U.S.
Supreme Court in McGirt v. Oklahoma, ___ U.S. ___,
140 S.Ct. 2452 (2020), I do so reluctantly. Upon the
first reading of the majority opinion in McGirt, I
initially formed the belief that it was a result in
search of an opinion to support it. Then upon reading
the dissents by Chief Justice Roberts and Justice
Thomas, I was forced to conclude the Majority had
totally failed to follow the Court’s own precedents,
but had cherry picked statutes and treaties, without
giving historical context to them. The Majority then
proceeded to do what an average citizen who had
been fully informed of the law and facts as set out in
the dissents would view as an exercise of raw judicial
power to reach a decision which contravened not only
the history leading to the disestablishment of the
Indian reservations in Oklahoma, but also willfully
disregarded and failed to apply the Court’s own precedents to the issue at hand.
¶ 2 My quandary is one of ethics and morality.
One of the first things I was taught when I began my
service in the Marine Corps was that I had a duty to
follow lawful orders, and that same duty required
me to resist unlawful orders. Chief Justice Roberts’s
scholarly and judicially penned dissent, actually
following the Court’s precedents and required analysis,
vividly reveals the failure of the majority opinion to

App.12a
follow the rule of law and apply over a century of
precedent and history, and to accept the fact that no
Indian reservations remain in the State of Oklahoma.2
The result seems to be some form of “social justice”
created out of whole cloth rather than a continuation
of the solid precedents the Court has established
over the last 100 years or more.

2 Senator Elmer Thomas, D-Oklahoma, was a member of the
Senate Committee on Indian Affairs. After hearing the Commissioner’s speech regarding the Indian Reorganization Act
(IRA) in 1934, Senator Thomas opined as follows:
I can hardly see where it (the IRA) could operate in a
State like mine where the Indians are all scattered
out among the whites and they have no reservation,
and they could not get them into a community
without you would go and buy land and put them on
it. Then they would be surrounded very likely with
thickly populated white sections with whom they
would trade and associate. I just cannot get through
my mind how this bill can possibly be made to operate
in a State of thickly-settled population. (emphasis
added).
John Collier, Commissioner of Indian Affairs, Memorandum of
Explanation (regarding S. 2755), p. 145, hearing before the United
States Senate Committee on Indian Affairs, February 27, 1934.
Senator Morris Sheppard, D-Texas, also on the Senate Committee
on Indian Affairs, stated in response to the Commissioner’s
speech that in Oklahoma, he did not think “we could look forward
to building up huge reservations such as we have granted to the
Indians in the past.” Id. at 157. In 1940, in the Foreword to
Felix S. Cohen, Handbook of Federal Indian Law (1942), Secretary
of the Interior Harold Ickes wrote in support of the IRA, “[t]he
continued application of the allotment laws, under which Indian
wards have lost more than two-thirds of their reservation lands,
while the costs of Federal administration of these lands have
steadily mounted, must be terminated.” (emphasis added).

App.13a
¶ 3 The question I see presented is should I
blindly follow and apply the majority opinion or do I
join with Chief Justice Roberts and the dissenters in
McGirt and recognize “the emperor has no clothes” as
to the adherence to following the rule of law in the
application of the McGirt decision?
¶ 4 My oath and adherence to the Federal-State
relationship under the U.S. Constitution mandate that
I fulfill my duties and apply the edict of the majority
opinion in McGirt. However, I am not required to do
so blindly and without noting the flaws of the opinion
as set out in the dissents. Chief Justice Roberts and
Justice Thomas eloquently show the Majority’s mischaracterization of Congress’s actions and history
with the Indian reservations. Their dissents further
demonstrate that at the time of Oklahoma Statehood
in 1907, all parties accepted the fact that Indian
reservations in the state had been disestablished and
no longer existed. I take this position to adhere to my
oath as a judge and lawyer without any disrespect to
our Federal-State structure. I simply believe that
when reasonable minds differ they must both be
reviewing the totality of the law and facts.

App.14a
LEWIS, JUDGE, SPECIALLY CONCURRING:
¶ 1 Based on my special writings in Bosse v. State,
2021 OK CR 3, ___ P.3d ___ and Hogner v. State,
2021 OK CR 4, ___ P.3d ___, I specially concur.
Following the precedent of McGirt v. Oklahoma, 140
S.Ct. 2452 (2020), Oklahoma has no jurisdiction over
an Indian who commits a crime in Indian Country, or
over any person who commits a crime against an Indian
in Indian Country. This crime occurred within the
historical boundaries of the Cherokee Nation Reservation and that Reservation has not been expressly
disestablished by the United States Congress. Additionally, Appellant is an Indian, thus the jurisdiction
is governed by the Major Crimes Act found in the
United States Code.
¶ 2 Oklahoma, therefore, has no jurisdiction,
concurrent or otherwise, over Appellant in this case.
Thus, I concur that this case must be reversed and
remanded with instructions to dismiss. Jurisdiction
is in the hands of the United States Government.

App.15a
HUDSON, J., CONCUR IN RESULTS:
¶ 1 Today’s decision applies McGirt v. Oklahoma,
140 S.Ct. 2452 (2020) to the facts of this case and
dismisses a first degree murder conviction from Rogers
County. I concur in the results of the majority’s opinion based on the stipulations below concerning the
Indian status of Appellant and the location of this
crime within the historic boundaries of the Cherokee
Reservation. Under McGirt, the State cannot prosecute
Appellant because of his Indian status and the
occurrence of this murder within Indian Country as
defined by federal law. I therefore as a matter of
stare decisis fully concur in today’s decision.
¶ 2 I disagree, however, with the majority’s
adoption as binding precedent that Congress never
disestablished the Cherokee Reservation. Here, the
State took no position below on whether the Cherokee
Nation has, or had, a reservation. The State’s tactic
of passivity has created a legal void in this Court’s
ability to adjudicate properly the facts underlying
Appellant’s argument. This Court is left with only
the trial court’s conclusions of law to review for an
abuse of discretion. We should find no abuse of discretion based on the record evidence presented. But we
should not establish as binding precedent that the
Cherokee Nation was never disestablished based on
this record.
¶ 3 Finally, I maintain my previously expressed
views on the significance of McGirt, its far-reaching
impact on the criminal justice system in Oklahoma
and the need for a practical solution by Congress. See
Bosse v. State, 2021 OK CR 3, ___ P.3d ___ (Hudson,
J., Concur in Results); Hogner v. State, 2021 OK CR

App.16a
4, ___ P.3d ___ (Hudson, J., Specially Concurs); and
Krafft v. State, No. F-2018-340 (Okl.Cr., Feb. 25,
2021) (Hudson, J., Specially Concurs) (unpublished).

App.17a
ORDER ON REMAND OF THE
DISTRICT COURT OF ROGERS COUNTY
STATE OF OKLAHOMA
(NOVEMBER 12, 2020)
IN THE DISTRICT COURT IN AND FOR
ROGERS COUNTY STATE OF OKLAHOMA
________________________
THE STATE OF OKLAHOMA,
Plaintiff,
v.
MICHAEL E. SPEARS,
Defendant.
________________________
Rogers County District Court
Case No.: CF-2017-1013
Court of Criminal Appeals Case No.: F-2019-330
Before: Kassie N. MCCOY, District Court Judge.
ORDER ON REMAND
This matter came on for hearing before the Court
on September 28, 2020, in accordance with the remand
order of the Oklahoma Court of Criminal Appeals
issued on August 19, 2020. The State appeared by
and through District Attorney Matthew Ballard.
Defendant appeared by and through attorney James
Lockard. Cherokee Nation, Amicus, appeared by and
through Attorney General Sara Hill. Based upon the

App.18a
stipulations and evidence presented by the parties,
review of the pleadings, and the briefs and argument
of counsel, the Court makes the following findings of
fact and conclusions of law:
FINDINGS OF FACT
1. Cherokee Nation is a federally recognized
Indian tribe. 84 C.F.R. § 1200 (2019).
2. The current boundaries of Cherokee Nation
encompass lands in a fourteen-county area within
the borders of the State of Oklahoma (Oklahoma),
including all of Adair, Cherokee, Craig, Nowata,
Sequoyah, and Washington Counties, and portions of
Delaware, Mayes, McIntosh, Muskogee, Ottawa,
Rogers, Tulsa, and Wagoner Counties.
3. Cherokee Nation’s government, headquartered
in Tahlequah, consists of executive, legislative, and
judicial branches, including active district and appellate
courts.
4. Cherokee Nation provides law enforcement
through its Marshal Service, and maintains crossdeputation agreements with state, county, and city
law enforcement agencies for protection of citizens
and non-citizens.
5. Approximately 139,000 Cherokee citizens reside
within the boundaries of Cherokee Nation.
6. Cherokee Nation provides services to communities within its boundaries, including, among others,
health and medical centers, veteran’s center, employment, housing, bus transit, waterlines, sewers, water
treatment, bridge and road construction, food distribution, child support services, child welfare, youth

App.19a
shelter, victim services, donations to public schools and
fire departments, and charitable contributions. “Rising
Together, 2018 Annual Report to the Cherokee People”
(FY 2018 Rep.) and “Popular Annual Financial Report
for FY 2019, Cherokee Nation” (FY 2019 Rep.),
available at https://www.cherokee.org/media/lufhr5rp/
fy2018-annual-report-final-online.pdf; https://www.
cherokee.org/media/gaahnswb/pafr-fy19-final-v-2.pdf.
7. Cherokee Nation is one of five tribes that have
been treated as a group for purposes of federal legislation (Cherokee, Muscogee (Creek), Choctaw, Chickasaw, and Seminole Nations, historically referred to as
the “Five Civilized Tribes” or “Five Tribes”).
8. Cherokee Nation was originally located in what
are now the states of Georgia, Alabama, Tennessee,
South Carolina, North Carolina, and Kentucky. Wilkins, Thurman, Cherokee Tragedy: The Ridge Family
and the Decimation of a People 22, 91, 209, 254 (rev.
2d ed. 1986).
9. The Indian Removal Act of 1830, Act of May
28, 1830, ch. 148, § 1, 4 Stat. 411, which implemented
the national removal policy, authorized the President
to divide public domain lands into defined “districts”
for tribes removing west of the Mississippi River.
10. The Indian Removal Act also provided that
the United States would “forever secure and guaranty”
such lands to the removed tribes, “and if they prefer
it . . . the United States will cause a patent . . . to be
made and executed to them for the same[.]” § 3, 4 Stat.
411.
11. The Cherokees exchanged lands in the Southeast for new lands in Indian Territory in the 1830s
under treaties with the United States.

App.20a
12. Removal of Cherokees was completed in 1838,
with many deaths occurring during the removal process. See The Western Cherokee Indians v. United
States, 27 Ct. at Cl. 1, 3, 1800 WL 1779 (1891); Rogin,
Michael Paul, Fathers & Children: Andrew Jackson
and the Subjugation of the American Indian 241 (1991).
13. After removal, the Five Tribes occupied almost
the entire area of what is now Oklahoma until after
the civil war, when their treaties required cessions of
lands in what is now western Oklahoma.
14. Since 1881, decades before Oklahoma statehood, states’ criminal jurisdiction has been limited to
offenses committed by non-Indians against non-Indians
in Indian country. United States v. McBratney, 104
U.S. 621, 624 (1881); see also Solem v. Bartlett, 465
U.S. 463, 465 n. 2 (1984) (“Within Indian country,
State jurisdiction is limited to crimes by non-Indians
against non-Indians . . . and victimless crimes by
non-Indians.”).
15. In 1890, Congress authorized the establishment of Oklahoma Territory in the western portion of
Indian Territory, and a territorial government was
formed there. Act of May 2, 1890, ch. 182, §§ 1-28, 26
Stat. 81 (1890 Act).
16. “The lands in the east held by the Five
Civilized Tribes remained Indian Territory, subject
only to federal and tribal authority.” Indian Country,
U.S.A., 829 F.2d 967, 977(10th Cir. 1987); §§ 29-44,
26 Stat. 81.
17. “No territorial government was ever created
in the reduced Indian Territory, and it remained subject directly to tribal and federal governance.” Indian
Country, U.S.A., 829 F.2d at 974, citing Jefferson v.

App.21a
Fink, 247 U.S. 288, 290-91 (1918); Southern Surety Co.
v. Oklahoma, 241 U.S. 582, 584 (1916).
18. Criminal prosecutions in Indian Territory
were split between tribal and federal courts. McGirt,
140 S.Ct. 2452, 2476 (2020), citing the 1890 Act, § 30,
26 Stat. 81, 94; see also Talton v. Mayes, 163 U.S.
376, 381 (1896) (finding that Cherokee Nation had
exclusive jurisdiction over an 1892 Cherokee murder
in Cherokee Nation under its treaties and the 1890
Act).
19. In 1906, Congress authorized the joinder of
Oklahoma Territory and Indian Territory to form the
State of Oklahoma. Act of June 16, 1906, ch.3335, 34
Stat. 267, as amended by the Act of Mar. 4, 1907, ch.
2911, 34 Stat. 1286) (Enabling Act).
20. The Enabling Act required transfer to the
federal courts in Oklahoma of prosecutions of “all
crimes and offenses” committed within Indian Territory
“which, had they been committed within a State, would
have been cognizable in the Federal courts.” § 16, 34
Stat. 267, 276, as amended by § 1, 34 Stat. 1286.
21. The State of Oklahoma entered the Union
in 1907. Proclamation, 35 Stat. 2160-61 (Nov. 16, 1907).

CONCLUSIONS OF LAW
Criminal Jurisdiction in Indian Country
1. Federal statutes define federal and state jurisdiction over crimes committed by or against Indians
in Indian country. Indian Country Criminal Jurisdictional Chart, available on United States Attorney
Western District of Oklahoma website at: https://www.
justice.gov/usaowdok/page/file/1300046/download).

App.22a
2. Oklahoma failed to assume criminal and civil
jurisdiction under Public Law 280, 25 U.S.C. § 1321,
before it was amended to require tribal consent, and has
thus never acquired jurisdiction over Indian country
through that law. Indian Country, U.S.A., 829 F.2d at
980 n.6; see Cravatt v. State, 1992 OK CR 6, 825 P.2d
277, 279 (Okla. Crim. App. 1992) (“The State of Oklahoma has never acted pursuant to Public Law 83-280,”
quoting State v. Klindt, 1989 OK CR 75, 782 P.2d 401,
403 (Okla. Crim. App. 1989). See also McGirt, 140 S.Ct.
at 2478 (“Oklahoma doesn’t claim to have complied
with the requirements to assume jurisdiction voluntarily over Creeks”).

3. Congress has not enacted any law conferring
criminal jurisdiction on Oklahoma over crimes committed by or against Indians in Indian country. See
McGirt, 140 S.Ct. at 2476-78 (rejecting the State’s arguments that allotment-era statutes granted Oklahoma
jurisdiction over all crimes in Indian country); United
States v. Ramsey, 271 U.S. 467, 469, 472 (1926) (Federal
court had jurisdiction over prosecution of a nonIndian for the murder of an Osage Indian on restricted
Osage allotment in Oklahoma).
4. “When Oklahoma won statehood in 1907, the
Major Crimes Act, 18 U.S.C. § 1153 (MCA), applied
immediately according to its plain terms” and crimes
covered by the MCA “belonged in federal court from
day one, wherever they arose within the new state
[of Oklahoma].” McGirt, 140 S.Ct. at 2477. “Only the
federal government, not the State, can prosecute
Indians for major crimes committed in Indian country.”
Id. at 2478.

App.23a
5. The MCA, 18 U.S.C. § 1153(a), governs jurisdiction only as to Indian offenders and only as to certain
listed qualifying crimes:
(a) Any Indian who commits against the
person or property of another Indian or
other person any of the following offenses,
namely, murder, manslaughter, kidnapping,
maiming, a felony under chapter 109A, incest,
a felony assault under section 113, an assault
against an individual who has not attained
the age of 16 years, felony child abuse or
neglect, arson, burglary, robbery, and a felony
under section 661 of this title within the
Indian country, shall be subject to the same
law and penalties as all other persons committing any of the above offenses, within the
exclusive jurisdiction of the United States.
6. Under the MCA, federal courts have exclusive
jurisdiction, as to Oklahoma, over prosecutions for
the listed crimes committed by Indians—whether
against Indians or non-Indians—in Indian country.
See McGirt, 140 S.Ct. at 2476-79 (Oklahoma had no
jurisdiction to prosecute a Seminole citizen for crimes
committed on fee lands within the Creek Reservation
under the MCA); see also Murphy v. Royal, 875 F.3d
896, 921 (10th Cir. 2017), aff’d, Sharp v. Murphy,
591 U.S. ___, 140 S.Ct. 2412 (2020) (Murphy) (murder
of an Indian by another Indian on the Creek
Reservation is subject to exclusive federal jurisdiction
under the MCA); United States v. Sands, 968 F.2d
1058, 1061-62 (10th Cir. 1992) cert. denied, 506 U.S.
1056 (1993) (“The State of Oklahoma does not have
jurisdiction over a criminal offense committed by one
Creek Indian against another in Indian country.”)

App.24a
7. The State of Oklahoma does not have subjectmatter jurisdiction over the criminal offense of Murder
committed by Mr. Spears, who is citizen of the Cherokee Nation, if such crime was committed in Indian
country.
Definition of Indian Country
1. It is well-established that trust and restricted
allotments in Oklahoma constitute Indian Country as
defined by 18 U.S.C. § 1151(c) (“all Indian allotments,
the Indian titles to which have not been extinguished,
including rights-of-way running through the same”),
and that Oklahoma does not have jurisdiction over
crimes committed on such lands. Cravatt, 825 P.2d at
279, overruling Ex parte Nowabbi, 1936 OK CR 123,
61 P.2d 1139, 1154; State v. Klindt, 782 P.2d at 403
(no state jurisdiction over assault with dangerous
weapon by or against Indian on Cherokee trust allotment).
2. The present case concerns the definition of
“Indian country” in 18 U.S.C. § 1151(a) (“all land within
the limits of any Indian reservation under the jurisdiction of the United States Government, notwithstanding the issuance of any patent, and, including
rights-of-way running through the reservation.”)
3. Tribal lands held in trust by the United States
and unallotted tribal lands are classified as reservations
for jurisdictional purposes. See United States v. John,
437 U.S. 634, 649 (1978) (Mississippi Choctaw tribal
trust lands are reservation lands); Ross v. Neff, 905
F.2d at 1352 (Cherokee tribal trust land is Indian
country under 18 U.S.C. § 1151); Indian Country,
U.S.A., 829 F.2d at 976 (unallotted Creek lands are
reservation lands).

App.25a
4. “[W]hen Congress has once established a reservation, all tracts included within it remain a part of
the reservation until separated therefrom by Congress.”
United States v. Celestine, 215 U.S. 278, 285 (1909).
5. “The purchase of lands by non-Indians is not
inconsistent with reservation status. McGirt, 140 S.Ct.
at 2464 n.3, citing Seymour v. Superintendent of Wash.
State Penitentiary, 368 U.S. 351, 357-358 (1962).
6. “Once a block of land is set aside for an Indian
reservation and no matter what happens to the title
of individual plots within the area, the entire block
retains its reservation status until Congress explicitly
indicates otherwise.” McGirt, 140 S.Ct. at 2468, citing
Solem v. Bartlett, 465 U.S. at 470.
Cherokee Reservation Establishment
1. The Cherokee Nation’s treaties must be considered on their own terms, in determining reservation
status. McGirt, 140 S.Ct. at 2479.
2. As noted by the Supreme Court, in McGirt,
Creek treaties promised a “permanent home” that
would be “forever set apart,” and assured a right to
self-government on lands that would lie outside both
the legal jurisdiction and geographic boundaries of
any state. McGirt, 140 S.Ct. at 2461-62 (describing in
detail provisions in Treaty with the Creeks, arts. I,
XII, XIV, XV, Mar. 24, 1832, 7 Stat. 366-68; Treaty with
the Creeks, preamble, arts. III, IV, IX, Feb. 14, 1833,
7 Stat. 417, 419; Treaty with Creeks and Seminoles,
arts. IV, XV, Aug. 7, 1856, 11 Stat. 699, 700, 704; and
Treaty Between the United States and the Creek
Indians, arts. III and IX, June 14, 1866, 14 Stat. 785,
786, 788.

App.26a
3. “Under any definition, this was a [Creek] reservation.” McGirt, 140 S.Ct. at 2461.
4. The Cherokee treaties were negotiated and
finalized during the same period of time as the Creek
treaties, contained similar provisions that promised
a permanent home that would be forever set apart,
and assured a right to self-government on lands that
would lie outside both the legal jurisdiction and
geographic boundaries of any state.
5. The 1833 Cherokee treaty “solemnly pledged”
a “guarantee” of seven million acres to the Cherokees
on new lands in the West “forever.” Treaty with the
Western Cherokee, Preamble, Feb. 14, 1833, 7 Stat.
414.
6. The 1833 Cherokee treaty used precise geographic terms to describe the boundaries of the new
Cherokee lands, and provided that a patent would issue
as soon as reasonably practical. Art. 1, 7 Stat. 414.
7. The 1835 Cherokee treaty, Treaty with the
Cherokee, Dec. 29, 1835, 7 Stat. 478, was ratified two
years later “with a view to re-unite their people in one
body and to secure to them a permanent home for
themselves and their posterity,” in what became known
as Indian Territory, “without the territorial limits of
the state sovereignties,” and “where they could establish and enjoy a government of their choice, and
perpetuate such a state of society as might be consonant with their views, habits and condition.” Holden
v. Joy, 84 U.S. (17 Wall.) 211, 237-38 (1872) (emphasis
added).
8. Like Creek treaty promises, the United States’
treaty promises to Cherokee Nation “weren’t made
gratuitously.” McGirt, 140 S.Ct. at 2460.

App.27a
9. Under the 1835 treaty, Cherokee Nation
“cede[d], relinquish[ed], and convey[ed]” all its aboriginal lands east of the Mississippi River to the United
States. Arts. 1, 7 Stat. 478.
10. In return, the United States agreed to convey
to Cherokee Nation, by fee patent, seven million acres
in Indian Territory within the same boundaries as
described in the 1833 treaty, plus “a perpetual outlet
west.” Art. 2, 7 Stat. 478.
11. The 1835 Cherokee treaty described the United
States’ conveyance to the Cherokee Nation of the
new lands in Indian Territory as a cession; required
Cherokee removal to the new lands; covenanted that
none of the new lands would be “included within
the territorial limits or jurisdiction of any State or
Territory” without tribal consent; and secured “to the
Cherokee nation the right by their national councils
to make and carry into effect all such laws as they
may deem necessary for the government . . . within
their own country,” so long as consistent with the
Constitution and laws enacted by Congress regulating
trade with Indians. Arts. 1, 5, 8, 19, 7 Stat. 478.
12. After removal, on December 31, 1838, President
Van Buren executed a fee patent to the Cherokee
Nation for the new lands in Indian Territory. Cherokee
Nation v. Hitchcock, 187 U.S. 294, 297 (1902).
13. The title was held by Cherokee Nation “for
the common use and equal benefit of all the members.”
Cherokee Nation v. Hitchcock, 187 U.S. at 307; see
also Cherokee Nation v. Journeycake, 155 U.S. 196, 207
(1894).
14. Fee title is not inherently incompatible with
reservation status, and establishment of a reservation

App.28a
does not require a “particular form of words.” McGirt,
140 S.Ct. at 2475, citing Maxey v. Wright, 54 S.W. 807,
810 (Indian Terr. 1900) and Minnesota v. Hitchcock,
185 U.S. 373, 390 (1902).
15. The 1846 Cherokee treaty required federal
issuance of a deed to the Nation for lands it occupied,
including the “purchased” 800,000-acre tract in Kansas
(known as the Neutral Lands”) and the “outlet west.”
Treaty with the Cherokee, Aug. 6, 1846, art. 1, 9 Stat.
871.
16. The 1866 treaty, which was negotiated after
the civil war and resulted in Cherokee cessions of
lands in Kansas and the Cherokee Outlet, required
the United States, at its own expense, to cause the
Cherokee boundaries to be marked “by permanent
and conspicuous monuments, by two commissioners,
one of whom shall be designated by the Cherokee
national council.” Treaty with the Cherokee, July 19,
1866, art. 21, 14 Stat. 799.
17. The 1866 Cherokee treaty “re-affirmed and
declared to be in full force” all previous treaty provisions
“not inconsistent with the provisions of” the 1866
treaty, and provided that nothing in the 1866 treaty
“shall be construed as an acknowledgment by the
United States, or as a relinquishment by Cherokee
Nation of any claims or demands under the guarantees
of former treaties,” except as expressly provided in
the 1866 treaty. Art. 31, 14 Stat. 799 (emphasis added).
18. The “most authoritative evidence of [a tribe’s]
relationship to the land . . . lies in the treaties and
statutes that promised the land to the Tribe in the
first place.” McGirt, 140 S.Ct. at 2475-76.

App.29a
19. Like Creek treaties, the Cherokee treaties
that promised land in Indian Territory to the Cherokee
Nation established the tribe’s relationships with that
land and created a reservation.
Current Cherokee Nation Boundaries
1. The current boundaries of Cherokee Nation
are as established in Indian Territory in the 1833
and 1835 Cherokee treaties, diminished only by two
express cessions.
2. First, the 1866 treaty expressly ceded the
Nation’s patented lands in Kansas, consisting of
a two-and-one-half mile-wide tract known as the
Cherokee Strip and the 800,000-acre Neutral Lands,
to the United States. Art. 17, 14 Stat. 799. See Map,
Goins, Charles Robert, and Goble, Danney, “Historical
Atlas of Oklahoma” (4th Ed. 2006) at 61).
3. Second, the 1866 treaty authorized settlement
of other tribes in a portion of the Nation’s land west
of its current western boundary (within the area known
as the Cherokee Outlet); and required payment for
those lands, stating that the Cherokee Nation would
“retain the right of possession of and jurisdiction over
all of said country . . . until thus sold and occupied,
after which their jurisdiction and right of possession
to terminate forever as to each of said districts thus
sold and occupied.” Art. 16, 14 Stat. 799.
4. The Cherokee Outlet cession was finalized by
an 1891 agreement ratified by Congress in 1893 (1891
Agreement). Act of Mar. 3, 1893, ch. 209, § 10, 27 Stat.
612, 640-43.
5. The 1891 Agreement provided that Cherokee
Nation “shall cede and relinquish all its title, claim,

App.30a
and interest of every kind and character in and to
that part of the Indian Territory” encompassing a
strip of land bounded by Kansas on the North and
Creek Nation on the south, and located between the
ninety-sixth degree west longitude and the one hundredth degree west longitude (i.e., the Cherokee Outlet).
See United States v. Cherokee Nation, 202 U.S. 101,
105-06 (1906). See Map, Goins, Charles Robert, and
Goble, Danney, “Historical Atlas of Oklahoma” (4th
Ed. 2006) at 61).
6. The 1893 statute that ratified the 1891 Agreement required payment of a sum certain to the Nation
and provided that, upon payment, the ceded lands
would “become and be taken to be, and treated as, a
part of the public domain,” except for such lands
allotted under the Agreement to certain described
Cherokees farming the lands. 27 Stat. 612, 640-43;
United States v. Cherokee Nation, 202 U.S. at 112.
7. Cherokee Nation did not cede or restore any
other portion of the Cherokee Reservation to the public
domain in the 1891 Agreement, and no other cession
has occurred since that time.
8. The original 1839 Cherokee Constitution established the boundaries as described in the 1833 treaty,
and the Constitution as amended in 1866 recognized
those same boundaries, “subject to such modification
as may be made necessary” by the 1866 treaty. 1839
Cherokee Constitution, art. I, § 1, and Nov. 26, 1866
amendment to art. I, § 1, reprinted in Volume I of
West’s Cherokee Nation Code Annotated (1993 ed.).
9. Cherokee Nation’s most recent Constitution,
a 1999 revision of its 1975 Constitution, was ratified
by Cherokee citizens in 2003, and provides: “The

App.31a
boundaries of the Cherokee Nation territory shall
be those described by the patents of 1838 and 1846
diminished only by the Treaty of July 19, 1866, and
the Act of Mar. 3, 1893.” 1999 Cherokee Constitution,
art. 2.
Statutory Text Governing Reservation
Disestablishment Inquiry
1. Courts do not lightly infer that Congress has
exercised its power to disestablish a reservation.
McGirt, 140 S.Ct. at 2462, citing Solem, 465 U.S. at
470. There is a “presumption” against disestablishment.
Murphy v. Royal, 875 F. 3d at 918, citing Solem, 465
U.S. at 481.
2. The only “step” proper for a court of law to
consider in a disestablishment analysis is “to ascertain
and follow the original meaning of the law” before it.
McGirt, 140 S.Ct. at 2468.
3. Once a reservation is established, it retains
that status “until Congress explicitly indicates otherwise.” McGirt, 140 S.Ct. at 2468, citing Solem, 465
U.S.at 470.

4. Congress must clearly express its intent to
disestablish, commonly by “‘[e]xplicit reference to
cession or other language evidencing the present and
total surrender of all tribal interests.’” McGirt, 140 S.Ct.
at 2463, citing Nebraska v. Parker, 577 U.S. 481, 136
S.Ct. 1072, 1079 (2016).
5. A statute disestablishing a reservation may
provide an “[e]xplicit reference to cession” or an
“unconditional commitment . . . to compensate the
Indian tribe for its opened land.” McGirt, 140 S.Ct. at
2462, citing Solem, 465 U.S. at 470.

App.32a
6. A statute disestablishing a reservation may
direct that tribal lands be “‘restored to the public
domain,’” McGirt, 140 S.Ct. at 2462, citing Hagen v.
Utah, 510 U.S. 399, 412 (1994), or state that a reservation is “‘discontinued,’” “‘abolished,’” or “‘vacated.’”
McGirt, 140 S.Ct. at 2463, citing Mattz v. Arnett, 412
U.S. 481, 504, n. 22 (1973); see also DeCoteau v.
District County Court for Tenth Judicial Dist., 420
U.S. 425, 439-440 n.22 (1975).
7. In 1893, Congress established the Commission
to the Five Civilized Tribes (popularly known as the
Dawes Commission) to negotiate agreements with the
Five Tribes for “the extinguishment of the national or
tribal title to any lands” in ‘Indian Territory “either
by cession,” by allotment, or by such other method as
agreed upon. § 16, 27 Stat. 612, 645-646.
8. According to an 1894 Dawes Commission report,
the Five Tribes “would not, under any circumstances,
agree to cede any portion of their lands.” Ann. Rept.
of the Comm. Five Civ. Tribes of 1894, 1895, and 1896
(1897) at 14. See McGirt, 140 S.Ct. at 2463.
9. This refusal to cede tribal lands is also reflected
in the Dawes Commission’s 1900 annual report: “Had
it been possible to secure from the Five Tribes a cession
to the United States of the entire territory at a given
price, . . . the duties of the commission would have
been immeasurably simplified . . . When an understanding is had, however, of the great difficulties which
have been experienced in inducing the tribes to
accept allotment in severalty . . . it will be seen how
impossible it would have been to have adopted a
more radical scheme of tribal extinguishment, no
matter how simple its evolutions.” Seventh Ann. Rept.

App.33a
of the Comm. Five Civ. Tribes (1900) at 9. (emphasis
added).
10. Where Congress contemplates, but fails to
enact, legislation containing express disestablishment language, the statute represents “a clear retreat
from previous congressional attempts to vacate the . . .
Reservation in express terms[.]” DeCoteau, 420 U.S.
at 448.
11. The “‘present and total surrender of all tribal
interests’ in the affected lands” required for disestablishment is missing from the Creek allotment agreement, Act of Mar. 1, 1901, ch. 676, 31 Stat. 861
(Creek Agreement). McGirt, 140 S.Ct. at 2464.
12. The Cherokee Nation ratified the Cherokee
allotment agreement in 1902. Act of July 1, 1902, ch.
1375, 32 Stat. 716 (Cherokee Agreement).
13. Like the Creek Agreement, the “‘present and
total surrender of all tribal interests’ in the affected
lands” required for disestablishment is missing in
the Cherokee Agreement.
14. The central purpose of the 1902 Cherokee
Agreement, like that of the Creek Agreement, was to
facilitate transfer of title from the Nation of “allottable
lands” (defined in § 5, 32 Stat. 716, as “all the lands
of the Cherokee tribe” not reserved from allotment)
to tribal citizens individually. Ninth Ann. Rept. of
the Comm. Five Civ. Tribes (1902) at 11.
15. Lands reserved from allotment included
schools, colleges, and town sites “in Cherokee Nation,”
cemeteries, church grounds, an orphan home, the
Nation’s capital grounds, its national jail site, and its
newspaper office site. §§ 24, 49, 32 Stat. at 719-20,

App.34a
724; see also Creek Agreement, § 24, 31 Stat. at 868869.
16. With exceptions for certain pre-existing town
sites and other special matters, the Cherokee Agreement established procedures for conveying allotments
to individual citizens who could not sell, transfer, or
otherwise encumber their allotments for a number of
years (5 years for any portion, 21 years for the
designated “homestead” portion). §§ 9-17, 32 Stat. at
717; see also McGirt, 140 S.Ct. at 2463, citing Creek
Agreement, §§ 3, 7, 31 Stat. 861, 862-864.
17. The restricted status of the allotments reflects
the Cherokee Nation’s understanding that allotments
would not be acquired by non-Indians, would remain
in the ownership of tribal citizens, and would be subject to federal protection.
18. Cherokee citizens were given deeds that
conveyed to them “all the right, title, and interest” of
the Cherokee Nation. § 58, 32 Stat. at 725; see also
McGirt, 140 S.Ct. at 2463, citing Creek Agreement,
§ 23, 31 Stat. at 867-868.
19. As of 1910, 98.3% of the lands of Cherokee
Nation (4,348,766 acres out of 4,420,068 acres) had
been allotted to tribal citizens; an additional 21,000
acres were reserved for town sites, schools, churches,
and other uses; and only 50,301 acres scattered
throughout the nation remained unallotted (approximately one percent of Cherokee Nation lands). Ann.
Rept. of the Comm. Five Civ. Tribes (1910) at 169, 176.
20. Allotment alone does not disestablish a reservation. McGirt, 140 S.Ct. at 2464, citing Mattz, 412
U.S. at 496-97 (explaining that Congress’s expressed
policy during the allotment era “was to continue the

App.35a
reservation system,” and that allotment can be “completely consistent with continued reservation status”);
and Seymour, 364 U.S. at 356-58 (allotment act “did
no more than open the way for non-Indian settlers to
own land on the reservation”).
21. Allotment-era statutes “did not abrogate the
federal government’s authority and responsibility,
nor allow jurisdiction by the State of Oklahoma” over
those [Creek] allotments). United States v. Sands,
968 F.2d at 1061-62.
22. The Act of June 28, 1898, ch. 517, 30 Stat.
495 (Curtis Act) recognized continuation of Cherokee
boundaries, by referencing a “permanent settlement
in the Cherokee Nation” and “lands in the Cherokee
Nation.” §§ 21, 25, 30 Stat. at 502, 504.
23. Statutory provisions related to tribal selfgovernance during the allotment era were “serious
blows” to the promised right to Creek self-governance,
but did not prove disestablishment. McGirt, 140 S.Ct.
at 2466.
24. “[P]erhaps in an effort to pressure the Tribe
to the negotiating table,” the Curtis Act included
provisions for termination of tribal courts. McGirt,
140 S.Ct. at 2465, citing § 28, 30 Stat. 495, 504-505.
25. The 1901 Creek Agreement expressly recognized the continued applicability of the Curtis Act’s
abolishment of Creek courts, by providing that nothing
in that agreement “shall be construed to revive or reestablish the Creek courts which have been abolished”
by former laws. § 47, 31 Stat. at 873.

App.36a
26. The Curtis Act’s abolishment of Creek courts
did not result in Creek reservation disestablishment.
McGirt, 140 S.Ct. at 2465-66.
27. Unlike the Creek Agreement, the Cherokee
Agreement did not describe tribal courts as “abolished”
by the Curtis Act or prohibit revival of tribal courts.
28. The Five Tribes Commission’s early efforts
to conclude an agreement with Cherokee Nation were
futile, “owing to the disinclination of the Cherokee commissioners to accede to such propositions as the Government had to offer.” Sixth Ann. Rept. of the Comm.
Five Civ. Tribes (1899 at 9-10.
29. The final ratified Cherokee Agreement omitted provisions in earlier unratified versions that
consented to extinguishment of Cherokee courts, Sixth
Ann. Rept. of the Comm. Five Civ. Tribes (1899),
Appendix No. 2, § 71 at 49, 57, or that prohibited
revival of Cherokee courts, Seventh Ann. Rept. of the
Comm. Five Civ. Tribes (1900) at 13, Appendix No. 1,
§ 80 at 37,45, Act of Mar. 1, 1901, ch. 675, pmbl. and
§ 72, 31 Stat. 848, 859 (unratified by Cherokee voters).
30. Section 73 of the Cherokee Agreement, 32
Stat. at 727, provided that “no Act of Congress or treaty
provision inconsistent with this agreement shall be
in force in said Nation” except sections 14 and 27 of
the Curtis Act, concerning towns in Indian Territory
and an Indian inspector, “which shall continue in
force as if this agreement had not been made.”
31. Treaty provisions not inconsistent with the
Cherokee Agreement included the 1866 Treaty’s provision that Cherokee courts would “retain exclusive
jurisdiction in all civil and criminal cases arising
within their country in which members of the nation,

App.37a
by nativity or adoption, shall be the only parties, or
where the cause of action shall arise in the Cherokee
Nation, except as otherwise provided in this treaty.”
Art. 13, 14 Stat. 799.
32. Another “serious blow” to Creek governmental
authority was a provision in the Creek Agreement
that conditioned the validity of Creek ordinances
“affecting the lands of the Tribe, or of individuals
after allotments, or the moneys or other property of
the Tribe, or of the citizens” thereof, on approval by
the President. McGirt, 140 S.Ct. at 2465, citing § 42,
31 Stat. at 872.
33. This provision did not result in reservation
disestablishment, in light of the absence of any of the
hallmarks for disestablishment in the Creek Agreement, such as cession and compensation. See McGirt,
140 S.Ct. at 2465 and n.5.
34. The Cherokee Agreement does not contain a
similar provision limiting the Cherokee Nation’s legislative authority by requiring Presidential approval of
certain ordinances
35. Like the Creek Agreement, § 46, 31 Stat. 872,
the Cherokee Agreement provided that tribal government would not continue beyond March 4, 1906. § 63,
32 Stat. at 725.
36. Two days before the March 4 deadline, Congress approved a Joint Resolution continuing Five
Tribes governments “in full force and effect” until
distribution of tribal property or proceeds thereof to
tribal citizens. Act of Mar. 2, 1906, 34 Stat. 822.
37. The following month, Congress enacted the
Five Tribes Act, which expressly continued the gov-

App.38a
ernments of all of the Five Tribes “in full force and
effect for all purposes authorized by law, until otherwise
provided by law.” McGirt, 140 S.Ct. at 2466, citing
Act of Apr. 26, 1906, ch. 1876, § 28, 34 Stat. 137, 148.
38. The Five Tribes Act authorized the President
to remove and replace the Five Tribes’ principal chiefs,
instructed the Secretary of the Interior to assume
control of tribal schools, and limited the number of
tribal council meetings to no more than 30 days
annually. McGirt, 140 S.Ct. at 2466, citing §§ 6, 10,
28, 34 Stat. 139-140, 148.
39. The Five Tribes Act also addressed the handling of the Five Tribes’ funds, land, and legal liabilities
in the event of dissolution. McGirt, 140 S.Ct. at 2466,
citing §§ 11, 27, 34 Stat. at 141, 148.
40. The congressional intrusions on Creek preexisting treaty rights “fell short of eliminating all
tribal interests in the land.” McGirt, 140 S.Ct. at
2466.
41. Congressional intrusions on Cherokee treaty
rights, which were less severe than intrusions on
Creek treaty rights, likewise did not eliminate the
Cherokee Nation’s tribal interest in its lands.
42. Congress left the Five Tribes “with significant
sovereign functions over the lands in question.” McGirt,
140 S.Ct. at 2466.
43. For example, Creek Nation retained the power
to collect taxes; to operate schools; and to legislate
through tribal ordinances (subject to Presidential
approval of certain ordinances as required by the
Creek Agreement, § 42, 31 Stat. 872). McGirt, 140 S.Ct.

App.39a
at 2466, citing Creek Agreement, §§ 39, 40, 42, 31
Stat. at 871-872.
44. The Cherokee Agreement similarly required
that the Secretary operate schools under rules “in
accordance with Cherokee laws;” required that funds
for operating tribal schools be appropriated by the
Cherokee National Council; required the Secretary’s
collection of a grazing tax for the benefit of Cherokee
Nation; and confirmed treaty rights. §§ 3, 32, 34, 72,
32 Stat. at 721, 727.
45. As with the Creek Agreement, there is no
hallmark language in the Cherokee agreement of
cession or compensation or other text that disestablished the reservation.
46. There is no ambiguous language in any of
the relevant allotment-era statutes applicable to
Cherokee Nation, including its allotment agreement,
“that could plausibly be read as an Act of disestablishment.” See McGirt, 140 S.Ct. at 2468 (reaching
same conclusion as to Creek Nation).
Events Surrounding Enactment of
Cherokee Allotment Legislation and
Later Demographic Evidence
1. A court may not favor contemporaneous or
later practices instead of the laws Congress passed.
McGirt, 140 S.Ct. at 2468.
2. “There is no need to consult extratextual
sources when the meaning of a statute’s terms is
clear. Nor may extratextual sources overcome those
terms. The only role such materials can properly play
is to help ‘clear up . . . not create’ ambiguity about a
statute’s original meaning.” McGirt, 140 S.Ct. at 2469.

App.40a
3. Because there is no ambiguous language in
any of the relevant allotment-era statutes applicable
to Cherokee Nation “that could plausibly be read as
an Act of disestablishment,” McGirt, 140 S.Ct. at
2468, it is unnecessary to consider events surrounding
enactment of Cherokee allotment legislation and
later demographic evidence as second and third steps
for purposes of a reservation disestablishment inquiry.
McGirt, 140 S.Ct. at 2468.
4. Even when these steps are considered, “the
carefully selected history” Oklahoma and the dissent
recited in McGirt supplies the Court “with little help
in discerning the law’s meaning and much potential
for mischief.” McGirt, 140 S.Ct. at 2474.
5. The consideration of the events surrounding
enactment of Cherokee allotment legislation and later
demographic evidence is unnecessary and contributes
nothing to the clear meaning of the statutes at issue.
6. However, consideration of the events surrounding the enactment of Cherokee allotment legislation
confirms the clear meaning of the statutes.
7. Federal statutes enacted near the beginning of
statehood recognized the existence of the Cherokee
Reservation as a distinct geographic area. See Enabling
Act, § 6, 34 Stat. 277 (the third district for the House
of Representatives must “(with the exception of that
part of recording district numbered twelve, which is
in the Cherokee and Creek nations) comprise all the
territory now constituting the Cherokee, Creek, and
Seminole nations and the Indian reservations lying
northeast of the Cherokee Nation, within said State”);
Act of June 21, 1906, ch. 3504, 34 Stat. 325, 342-43
(drawing recording districts in the Indian Territory,

App.41a
including district 27, with boundaries along the
northern and western “boundary line[s] of the Cherokee
Nation,” and district 28, described as “lying within the
boundaries of the Cherokee Nation”); Act of June 30,
1913, ch. 4, § 18, 38 Stat. 77, 95 (“common schools in the
Cherokee, Creek, Choctaw, Chickasaw, and Seminole
Nations”); Act of May 25, 1918, ch. 86, 40 Stat. 561,
581 (“common schools in the Cherokee, Creek, Choctaw, Chickasaw, and Seminole Nations”).
8. Demographic evidence, including the “speedy
and persistent movement of white settlers” onto Five
Tribes land throughout the late nineteenth and early
twentieth centuries, is not helpful in discerning statutory meaning. McGirt, 140 S.Ct. at 2473.
9. Historical statements by tribal officials and
others supporting an idea that “everyone” in the
late nineteenth and twentieth centuries believed the
reservation system and Creek Nation would be
disbanded, without reference to any ambiguous statutory direction, were merely prophesies that were not
self-fulfilling. McGirt, 140 S.Ct. at 2472.
10. As was the case for the Creek Nation, “Congress never withdrew its recognition” of the Cherokee
government, and “none of its [later] adjustments would
have made any sense if Congress thought it had
already completed that job.” McGirt, 140 S.Ct. at
2466.
11. Congress shifted its national Indian policy
from assimilation to tribal self-governance in the early
twentieth century. See McGirt, 140 S.Ct. at 2467.
12. The 1934 Indian Reorganization Act (IRA)
officially ended the allotment era for all tribes. Act of

App.42a
June 18, 1934, ch. 576, 48 Stat. 984 (codified at 25
U.S.C. §§ 5101, et seq.)
13. The IRA excluded Oklahoma tribes from
applicability of five IRA sections, 25 U.S.C. § 5118,
but all other IRA sections applied to Oklahoma
tribes, including provisions ending allotment.
14. The 1936 OIWA included a section acknowledging tribal authority to adopt constitutions and
corporate charters, and repealed all acts or parts of
acts inconsistent with the OIWA. 25 U.S.C. §§ 5203,
5209.
15. Oklahoma’s long historical practice of asserting
jurisdiction over Indians in state court, even for
serious crimes on reservations, is “a meaningless
guide for determining what counted as Indian country.”
McGirt, 140 S.Ct. at 2471.
16. The Five Tribes spent the better part of the
twentieth century battling the consequences of the
“bureaucratic imperialism” of the Bureau of Indian
Affairs (BIA), which promoted the erroneous belief that
the Five Tribes possessed only limited governmental
authority. Harjo v. Kleppe, 420 F. Supp. 1110, 1130
(D.D.C.1976), affd sub nom. Harjo v. Andrus, 581
F.2d 949 (D.C. Cir. 1978) (finding that the evidence
“clearly reveals a pattern of action on the part of the
BIA “designed to prevent any tribal resistance to the
Department’s methods of administering those Indian
affairs delegated to it by Congress,” as manifested in
“deliberate attempts to frustrate, debilitate, and generally prevent from functioning the tribal governments expressly preserved by § 28 of the [Five Tribes]
Act.”).

App.43a
17. The BIA’s treatment of the Five Tribes, which
impeded the Tribes’ ability to fully function as governments for decades, has limited interpretive value and
cannot overcome lack of statutory text demonstrating
disestablishment. McGirt, 140 S.Ct. at 2469, n. 8,
citing Parker, 136 S.Ct. at 1082.
18. Oklahoma’s fears concerning challenges to
past convictions based on a finding of Creek reservation
status cannot force the Court “to ignore a statutory
promise when no precedent stands before us at all.”
McGirt, 140 S.Ct. at 2480.
19. Cherokee Nation’s government, like those of
other tribes, was strengthened by the Indian Self-Determination and Education Assistance Act (ISDEAA) of
1975. Act of Jan. 4, 1975, Pub. L. No. 93-638, 88 Stat.
2203 (codified at 25 U.S.C. §§ 5301, et seq.).
CONCLUSION
The State has argued the burden of proof regarding
whether Congress specifically erased the boundaries
or disestablished the reservation rests solely with
Defendant/Petitioner. The State also made clear that
the State takes no position as to the facts underlying
the existence, now or historically, of the alleged
Cherokee Nation Reservation. No evidence or argument
was presented by the State specifically regarding disestablishment or boundary erasure of the Cherokee
Reservation. The Order Remanding for Evidentiary
Hearing states, “Upon Petitioner’s presentation of
prima facie evidence as to Mr. Spears’ legal status as
an Indian and as to the location of the crime in
Indian Country, the burden shifts to the State to prove
it has subject matter jurisdiction.” Order Remanding
for Evidentiary Hearing at 3.

App.44a
On this point, McGirt provides that once a
reservation is established, it retains that status “until
Congress explicitly indicates otherwise.” McGirt, 140
S.Ct. at 2468. Reading the order of remand together
with McGirt, regardless of where the burden of
production is placed, no evidence was presented to
this Court to establish Congress explicitly erased or
disestablished the boundaries of the Cherokee Nation
or that the State of Oklahoma has jurisdiction in this
matter. As a result, the Court finds Mr. Spears is an
Indian and that the crime occurred in Indian Country.
IT IS SO ORDERED this 12th day of November,
2020.
/s/ Kassie N. McCoy
Judge of the District Court

App.45a
COURT OF CRIMINAL APPEALS,
STATE OF OKLAHOMA, ORDER REMANDING
FOR EVIDENTIARY HEARING
(AUGUST 19, 2020)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
MICHAEL EUGENE SPEARS,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Case No. F-2019-330
Before: David B. LEWIS, Presiding Judge,
Dana KUEHN, Vice Presiding Judge,
Gary L. LUMPKIN, Judge, Robert L. HUDSON,
Judge, Scott ROWLAND Judge.
ORDER REMANDING
FOR EVIDENTIARY HEARING
Michael Eugene Spears was tried by jury in the
District Court of Rogers County, Case No. CF-20171013, and convicted of First Degree Murder, in violation
of 21 O.S.Supp.2012, § 701.7. In accordance with the
jury’s recommendation, the Honorable Sheila Condren
sentenced Spears to life imprisonment with the

App.46a
possibility of parole. Spears must serve 85% of his
sentence before he is eligible for parole consideration.
Spears appeals his Judgment and Sentence.
In Proposition 1 of his Brief-in-Chief, filed December 17, 2019, Spears claims the District Court lacked
jurisdiction to try him. Spears argues that he is a
citizen of the Cherokee Nation and that the crime
occurred within the boundaries of the Cherokee Nation
Reservation.1 Spears, in his direct appeal, relied on
jurisdictional issues addressed in Murphy v. Royal,
875 F.3d 896 (10th Cir. 2017), which was affirmed by
the United States Supreme Court in Sharp v. Murphy,
591 U.S. ___, 140 S.Ct. 2412 (2020) for the reasons
stated in McGirt v. Oklahoma, 591 U.S. ___, 140
S.Ct. 2452 (2020).2
Spears’s claim raises two separate questions: (a)
his Indian status and (b) whether the crime occurred
in Indian Country. These issues require fact-finding.
We therefore REMAND this case to the District
Court of Rogers County, for an evidentiary hearing to
be held within sixty (60) days from the date of this
Order.

1 Spears also claims that defense counsel was ineffective for
failing to raise the issue of jurisdiction and asks the Court to
order an evidentiary hearing for the purpose of developing the
record with regard to his claims.
2 On May 18, 2020, we held Spears’s direct appeal in abeyance
pending the resolution of the litigation in Murphy. Following
the decision in McGirt, the State asked to file a supplemental
response to Spears’s jurisdictional claim and Spears objected. In
light of the present order, there is no need for an additional
response from the State at this time and that request is DENIED.

App.47a
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we request
the Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Upon Spears’s presentation of
prima facie evidence as to his legal status as an
Indian and as to the location of the crime in Indian
Country, the burden shifts to the State to prove it
has subject matter jurisdiction.
The hearing shall be transcribed, and the court
reporter shall file an original and two (2) certified
copies of the transcript within twenty (20) days after
the hearing is completed. The District Court shall
then make written findings of fact and conclusions of
law, to be submitted to this Court within twenty (20)
days after the filing of the transcripts in the District
Court. The District Court shall address only the
following issues:
First, Spears’s status as an Indian. The District
Court must determine whether (1) Spears has some
Indian blood, and (2) is recognized as an Indian by a
tribe or the federal government.3
Second, whether the crime occurred in Indian
Country. The District Court is directed to follow the
analysis set out in McGirt, determining (1) whether
Congress established a reservation for the Cherokee
Nation, and (2) if so, whether Congress specifically
erased those boundaries and disestablished the
reservation. In making this determination the District
3 See United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir.
2012); United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th
Cir. 2001). See generally Goforth v. State, 1982 OK CR 48, ¶ 6,
644 P.2d 114, 116.

App.48a
Court should consider any evidence the parties provide,
including but not limited to treaties, statutes, maps,
and/or testimony.
The District Court Clerk shall transmit the record
of the evidentiary hearing, the District Court’s findings
of fact and conclusions of law, and any other materials
made a part of the record, to the Clerk of this Court,
and counsel for Appellant, within five (5) days after
the District Court has filed its findings of fact and
conclusions of law. Upon receipt thereof, the Clerk of
this Court shall promptly deliver a copy of that record
to the Attorney General. A supplemental brief, addressing only those issues pertinent to the evidentiary
hearing and limited to twenty (20) pages in length,
may be filed by either party within twenty (20) days
after the District Court’s written findings of fact and
conclusions of law are filed in this Court.
Provided however, in the event the parties agree
as to what the evidence will show with regard to the
questions presented, they may enter into a written
stipulation setting forth those facts upon which they
agree and which answer the questions presented and
provide the stipulation to the District Court. In this
event, no hearing on the questions presented is
necessary. Transmission of the record regarding the
matter, the District Court’s findings of fact and conclusions of law and supplemental briefing shall occur
as set forth above.
IT IS FURTHER ORDERED that the Clerk of
this Court shall transmit copies of the following, with
this Order, to the District Court of Rogers County:
Appellant’s Brief in Chief and Application for Evidentiary Hearing filed December 17, 2019; Appellant’s

App.49a
Reply Brief filed June 4, 2020; and Appellee’s Response
Brief filed April 7, 2020.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 19th day of August, 2020.
/s/ David B. Lewis
Presiding Judge
/s/ Dana Kuehn
Vice Presiding Judge
/s/ Gary L. Lumpkin
Judge
/s/ Robert L. Hudson
Judge
/s/ Scott Rowland
Judge

